ROB BONTA
Attorney General

State of California
DEPARTMENT OF JUSTICE
600 WEST BROADWAY, SUITE 1800
SAN DIEGO, CA 92101
P.O. BOX 85266
SAN DIEGO, CA 92186-5266

Public: (619) 738-9000
Telephone: (619) 738-9035
Facsimile: (619) 645-2044
E-Mail: Andrew.Mestman@doj.ca.gov

Via Electronic Filing System

October 18, 2021

Honorable Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington DC 20543
RE:

Luke Noel Wilson v. California, No. 20-1737
Request for Extension of Time to File Response to Petition for Certiorari

Dear Mr. Harris:
This office represents respondent, the State of California, in the above-entitled case. The
petition for a writ of certiorari was filed on June 11, 2021. On September 29, the Court
requested a response, which is currently due on October 29. Pursuant to Rule 30.4, I respectfully
request that the time for filing that brief be extended by thirty days to November 28, 2021.
Respondent has not previously requested any extension of time in this matter.
An extension of time would better enable the preparation of a response that respondent
believes would be most helpful to the Court.
Accordingly, I request that the due date for the brief in opposition to the petition for a
writ of certiorari be extended to November 28, 2021.
Sincerely,
/s/ Andrew S. Mestman
Andrew S. Mestman
Deputy Attorney General
For

cc: Charles Sevilla, Counsel for Petitioner
AM:cc
SD2021802022/Wilson SCOTUS EOT

ROB BONTA
Attorney General

